<html>
<title> - SECURING PERSONALLY IDENTIFIABLE INFORMATION WITHIN THE UNITED STATES CAPITOL POLICE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 SECURING PERSONALLY IDENTIFIABLE INFORMATION WITHIN THE UNITED STATES 
                             CAPITOL POLICE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CAPITOL SECURITY

                                 of the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, OCTOBER 14, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html




                  U.S. GOVERNMENT PRINTING OFFICE
53-758                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                      Jamie Fleet, Staff Director
               Victor Arnold-Bik, Minority Staff Director
                                 ------                                

                    Subcommittee on Capitol Security

MICHAEL E. CAPUANO, Massachusetts,   DANIEL E. LUNGREN, California
  Chairman
ROBERT A. BRADY, Pennsylvania

 
 SECURING PERSONALLY IDENTIFIABLE INFORMATION WITHIN THE UNITED STATES 
                             CAPITOL POLICE

                              ----------                              


                      WEDNESDAY, OCTOBER 14, 2009

                  House of Representatives,
                  Subcommittee on Capitol Security,
                         Committee on House Administration,
                                                    Washington, DC.

    The subcommittee met, pursuant to call, at 11:02 a.m., in 
room 1310, Longworth House Office Building, Hon. Michael E. 
Capuano (chairman of the subcommittee) presiding.
    Present: Representatives Capuano and Lungren.
    Staff Present: Jamie Fleet, Staff Director; Charles Howell, 
Chief Counsel; Matt Pinkus, Professional Staff Member, 
Parliamentarian; Kyle Anderson, Press Director; Greg Abbott, 
Professional Staff Member; Darrell O'Connor, Professional Staff 
Member; Shervan Sebastian, Staff Assistant; Matt Field, 
Minority Professional Staff; and Joe Wallace, Legislative 
Clerk.
    Mr. Capuano. First, I want to welcome everybody to the 
hearing this morning. I want to welcome the Chief and Mr. 
Hoecker particularly for coming and catching us up on this 
issue. As I understand, this hearing is being held in relation 
to H. Res. 40, which relates to the oversight--I forgot about 
the technology--H. Res. 40, which relates to oversight for 
various items. And my understanding is today we are going to 
talk about some PII--I love these initials--personal 
information, whatever the hell it is, I don't know. And I am 
basically going to put the official statement on the record 
because I hate it when these things get read. I am not going to 
do that. And with that, I am going to ask Mr. Lungren if he 
wants to do his.
    [The statement of Mr. Capuano follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Lungren. Thank you very much, Mr. Chairman. It is 
correct that we are calling this meeting pursuant to our 
requirement for this oversight. I think, first of all, I would 
like to express my appreciation to the Capitol Police for the 
great job that they are doing in protecting our visitors and 
the Members who are here. I think we have passed the 2 million 
mark now over at the CVC. So we are having a tremendous 
increase in the number of people who are able to access their 
Nation's Capitol. But also we had the recent shooting incident 
near the Senate office buildings. The swift initial defensive 
actions of the officers involved, as well as the subsequent 
efforts to prevent further injury to the perpetrator are a 
credit to both their professionalism and their training. And I 
think it is good for us to acknowledge that publicly. So Chief, 
I hope that you will give that message to your people. And I am 
pleased that we are here dealing with an issue that may sound 
arcane, but it is rather important. It is what we do with the 
personal private information of members and staff. When should 
be it released? Under what circumstances should it be released? 
How should it be protected? Do we have the means by which we 
are protecting it? Oftentimes here in this House of 
Representatives we are busy concerned with the privacy rights 
of individuals, which is extremely important, but we also ought 
to take a moment to see how we are handling the privacy 
information of Members of Congress, which could also relate to 
their families, and staff here who are helping us. And so I 
believe that having both the Chief and the inspector general 
with us will help us to see where we are now and how we might 
improve, and give some assurance to those with whom we serve as 
well as those who work with us that we consider their privacy 
information important as well. So thank you, Mr. Chairman, for 
having this, and I look forward to the testimony.
              Prepared Statement of the Hon. Robert Brady
    I would like to thank Chief Morse, and the Inspector General Mr. 
Carl Hoecker, for being here today.
    With identity theft becoming more and more commonplace, the need to 
protect personally identifying information has become increasingly 
important. It is obvious that as part of their day-to-day operations, 
the Capitol Police would have to process personally identifying 
information. Developing and implementing systems to protect that 
information is a vitally important component of the mission of the 
USCP. This is not just vital for Capitol Police employees, but for 
Members and their staffs as well.
    I would like to commend the diligence of the Inspector General in 
identifying ways to improve information security within the Capitol 
Police Force. Furthermore, I would like to commend Chief Morse for 
immediately beginning, and actively implementing, the IG 
recommendations. I appreciate the seriousness with which your 
department has treated this matter.
    Today, I look forward to hearing how the Capitol Police have 
already begun to safeguard sensitive information, and what improvements 
we can expect down the road. I want to ensure Members and their 
staffers that their personal information is safe in the hands of the 
U.S. Capitol Police.

   STATEMENTS OF PHILLIP D. MORSE, SR., CHIEF, UNITED STATES 
CAPITOL POLICE; AND CARL W. HOECKER, INSPECTOR GENERAL, UNITED 
                     STATES CAPITOL POLICE

    Mr. Capuano. Chief.

                STATEMENT OF PHILLIP MORSE, SR.

    Chief Morse. Good morning, Chairman, and good morning, Mr. 
Lungren. I appreciate the opportunity to testify before you 
today on personally identifiable information, or PII, of the 
department's stakeholders. In addition to insuring the privacy 
of our employees, the United States Capitol Police has the 
unique responsibility of insuring the privacy of the Members of 
Congress, congressional staff, and members of the public with 
whom we have reason to come in contact. Also the U.S. Capitol 
Police maintain some Department employee PII. The most 
sensitive employee information is primarily maintained by 
cross-servicing partner agencies. We actively and continually 
work with our partners to protect this employee PII. In 
addition to carrying out our mission, the department's policy 
is to secure and maintain very limited personally identifiable 
information on Members of Congress, such as names, residences, 
addresses, and contact numbers. The Department also securely 
maintains PII that is collected for law enforcement purposes 
involving the public.
    The Department has various policies, procedures, and 
protocols in place to ensure that PII collected in these 
various areas is necessary, reasonable, appropriately secured, 
and properly maintained. Earlier this fiscal year, the U.S. 
Capitol Police Office of Inspector General conducted an audit 
on the Department's privacy program. In that audit, the 
inspector general made three recommendations regarding the 
measures the Department should take to establish a more unified 
and formal privacy program to enhance the protection of PII.
    As indicated in my response to the inspector general's 
report, I concur and I embrace all of the recommendations. I am 
also pleased to convey that we have taken steps to address a 
number of these issues, and are actively engaged in deploying 
plans on how to best address the remaining issues. Recently, 
the Department appointed Mr. Norman Farley as our new chief 
administrative officer and chief privacy officer. Related to 
his duties as the Department's chief privacy officer, I have 
asked Mr. Farley to review all existing policies, procedures, 
and protocols, addressing privacy-related risks, and developing 
cohesive guidance to assist in the identification, 
implementation, and maintenance of a unified privacy program in 
coordination with the Department's executive management team 
and our Office of General Counsel.
    In the short time since his appointment, Mr. Farley has 
already begun to assess the Department's current activities 
related to PII, and is slated to provide his findings and 
implementation plan to the Department's executive team within 
the next few months. This plan will include establishing 
timelines and milestones for the full implementation of a 
unified privacy program within the Department. Although the 
office of inspector general audit recommendations will remain 
open until the unified privacy program and policy are finalized 
and implemented, I am also pleased to report that the 
corrective actions we have identified to resolve the issues 
raised in this report have been deemed by the inspector general 
to be effective approaches to the issue.
    I believe that the Department has the initial tools 
required to effectively and efficiently facilitate the 
establishment of a unified privacy program that will mitigate 
identified privacy-related issues and risks. Please be assured 
that we are fully committed to executing this plan to ensure 
the security and privacy of our employees, the public, and 
Members of Congress and their staffs.
    Again I just want to thank you for the opportunity to 
appear here today, and I am happy to answer any questions that 
you may have. Thank you.
    [The statement of Chief Morse follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Capuano. Mr. Hoecker.

                   STATEMENT OF CARL HOECKER

    Mr. Hoecker. Thank you, Mr. Chairman, Mr. Lungren. Good 
morning. My name is Carl Hoecker. I am the Inspector General 
for the Capitol Police. Thank you for inviting me here this 
morning to discuss our work regarding the Department's privacy 
program. My office conducted an audit of the Department's 
privacy efforts. The objectives were to determine if the 
Capitol Police had developed a privacy program that adheres to 
Federal standards and best practices, and if the program's 
safeguards assisted the Department in protecting stakeholder 
information from potential disclosure, specifically that of 
Congressional Members and their staff. Our scope included the 
Department's privacy programs in effect as of October 1st, 
2008.
    We defined the term Personally Identifiable Information, 
PII, as the information that can be used to distinguish or 
trace an individual's identity, such as their name, social 
security number, biometric records, et cetera, alone, or when 
combined with other personal or identifying information which 
is linked or linkable to a specific individual, such as date 
and place of birth, mother's maiden name, et cetera. While the 
Capitol Police is a legislative branch agency and generally not 
required to comply with executive branch regulations, the 
Department views the principles of the Office of Management and 
Budget, (OMB), guidance and other sources as best practices to 
develop its policies and procedures.
    Federal privacy best practices require that each Federal 
agency develop and implement policies and procedures for an 
overall privacy program; identify and safeguard PII in both 
paper and electronic form; develop a training program to 
annually educate employees on requirements for handling PII; 
perform risk assessments over major information systems and 
implement appropriate safeguards based upon those risks; and 
implement secure baseline configurations over information 
systems. OIG found the Department does not have a formal 
privacy program that ensures privacy-related risks have been 
identified and adequately addressed. While the Capitol Police 
do collect and handle PII of Congressional Members and their 
staff, the Department has not identified where the PII is 
collected, maintained, processed, or disseminated. The 
Department has neither clearly defined the roles and 
responsibilities of key privacy personnel, nor provided 
applicable training to such personnel. We also noted that the 
Capitol Police organizational chart did not identify the Chief 
Privacy Officer, or CPO, or include this position within its 
organizational structure. Additionally, the role of the CPO has 
not yet been defined by the Department. The lack of a CPO 
position on the organizational chart and the absence of a clear 
role for the CPO indicate that the position's authority has not 
been communicated or recognized within the Department.
    During the course of our work, OIG noted no instances of 
either intentional or inadvertent releases of PII. However, the 
scope of the audit was not designed to identify breaches of 
PII. The Department appointed a CPO in August of 2007. The 
Department also had established a privacy board consisting of a 
CPO and other key personnel. The board's overall objective is 
to determine the appropriate policy, procedures, operational, 
administrative, and technological issues within the Department 
that affect individual privacy, as well as data integrity and 
data interoperability and other privacy matters.
    While the board has taken some action to address the 
privacy concerns, the majority of the actions taken at the time 
of our audit were either in draft or initial stages, and, 
therefore, not functioning effectively. To improve the internal 
efficiency and effectiveness of the Department's PII program, 
and to assist in safeguarding such information, OIG recommended 
that the Department finalize its policies and procedures, 
identify the CPO in the org chart, clearly define roles, 
responsibilities, and the authorities of the CPO and other key 
privacy personnel, and to provide applicable privacy training 
to all contractors and employees. Additionally, we recommended 
that the Department immediately conduct a review to identify 
where PII is collected, maintained, processed, and disseminated 
within the organization. The Department has agreed with the 
recommendations. Initial steps have been taken by the 
Department toward improving programs. However, the 
recommendations are still open. This concludes my testimony. I 
would be happy to address your questions.
    Mr. Capuano. Thank you, Mr. Hoecker.
    [The statement of Mr. Hoecker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Capuano. Chief, I am just curious, I am less interested 
in my own privacy, because I have chosen a public life, and I 
kind of figure pretty much everything you have anybody can find 
out is my guess. Is that a reasonable--what do you have on me 
that I don't already know?
    Chief Morse. The limited information that we have on 
Members is provided to us in hard copy, not electronically. It 
is name, address, phone number, those types of things for 
emergency contact.
    Mr. Capuano. Okay. That is what I figured. For me, pretty 
much everything can be found. And I think for most of us that 
is pretty readily available by junior league person on the 
Internet. So I am not worried about that. But I am interested 
in the staff for the very simple reason that they have not 
chosen the public life. I guess, Mr. Hoecker, I wanted to ask, 
when audits get done, that is fine. At this point in time are 
you reasonably satisfied that they are making reasonable 
progress towards addressing the issues raised?
    Mr. Hoecker. Yes, sir, I am. I think they have taken the 
initial foundations, set the stage. The way that works is when 
they satisfy or when the Department believes they have 
satisfied a recommendation, they provide evidence to my office, 
and we would look at it and make sure that that is kind of 
where we are coming from. I think they are headed in the right 
direction, to answer your question, sir.
    Mr. Capuano. Okay. I think that is what audits always do. I 
was a little concerned, though, when you said it was a 
procedures-oriented, if I remember the terms, audit, as opposed 
to one looking for breaches. At some point, once the proper 
procedures are in place, who will then check whether to make 
sure that the procedures actually work or they have to be 
amended or whatever? Would that be you or the Department itself 
or both?
    Mr. Hoecker. It could be both, sir. What this looked at is 
since there wasn't a formal policy, what we would do is when 
there is a policy, we could test it if it is actually being 
effectively implemented.
    Mr. Capuano. Because even with the best of policies there 
is going to be somebody, even the State Department, you know, 
we read about all the time somebody at the State Department, 
somebody at the IRS, State level, same thing, somebody will 
access it inappropriately. And that is bad enough, but then 
they will oftentimes catch it. I think that is kind of 
important as well, to have the right procedures, but also have 
the right investigative tools available after the fact.
    Mr. Hoecker. Yes, sir.
    Chief Morse. Yeah, one of the things that the program and 
policies and procedures will address is internal controls to 
prevent, obviously, any breaches of personal information, but 
also to constantly check to ensure that those policies and 
procedures are followed and updated on a regular basis.
    Mr. Capuano. What kind of information do you have on the 
average staff person? Same type of information?
    Chief Morse. Yeah, there is really no reason for us to keep 
information on any staff, because our emergency notification 
system is more of a general notification through e-mail and 
alert systems. Sometimes there may be information that, you 
know, their names. But there is really no other reason to have 
any other information unless there is a police report taken. In 
the instance of police reports, whenever there is a damage to 
auto or traffic accident or a crime, generally speaking, those 
only require a name, and then their addresses and phone numbers 
and things like that are identified as on file.
    And then we have an internal document or police report that 
identifies them as staff and who they work for and the 
information that is needed. And then that is maintained in our 
reports processing section.
    Mr. Capuano. I heard some mention of the word 
``biometrics.'' I mean, you got my DNA on file someplace?
    Chief Morse. I do not.
    Mr. Capuano. I can't imagine why you would want it, but 
that is--all right. So at the moment you are not keeping any 
biometric information on anybody then?
    Chief Morse. Not that I am aware of.
    Mr. Capuano. I don't know if that is the full answer now, 
Chief. You are not supposed to be doing it.
    Chief Morse. I do not keep any of that information, no, or 
collect it.
    Mr. Capuano. Okay. Thank you. Mr. Lungren.
    Mr. Lungren. Why do you think they provide the water 
bottles for you there? Thanks very much for your testimony. 
Chief, according to your testimony, Mr. Hoecker's testimony, 
there was appointed by the Department a chief privacy officer 
in August of 2007, yet Mr. Hoecker's work was done as of 
October 1, 2008. And I know you have mentioned that you 
recently appointed a new chief information officer, chief 
privacy officer. What happened between August 2007 and October 
1, 2008, if we didn't have any policies in place at that point 
in time?
    Chief Morse. Well, I just want to clarify that the 
Department does have policies and procedures in place. They 
just don't fall under any unified program or chief information 
officer, which we plan to do with this new program. So we do 
have policies and procedures in place at various entities 
within the police department that collect personal identifiable 
information on employees.
    Mr. Lungren. I am just trying to get at, did I 
misunderstand you, Mr. Hoecker, when you said they didn't have 
a policy in place?
    Mr. Hoecker. I think the clarification is they don't have 
any PII policy, something that rolls that all up. There may be 
policies, for instance in the police section, where when you 
apprehend a suspect and fill out a form, there may be policies 
that safeguard reports, but there is no overall PII policy.
    Mr. Lungren. Chief, when you mentioned that you have 
information, limited information, personally identifiable 
information on Members of Congress, names, residence addresses, 
contact telephone numbers and so forth, is that your 
independently kept record or is that information you get from 
the CAO or the Speaker's office or someplace?
    Chief Morse. Yeah, the information that I referred to is 
provided to us in hard copy from the House Sergeant at Arms 
office and is updated as necessary.
    Mr. Lungren. So do you maintain a separate file from the 
Sergeant at Arms?
    Chief Morse. Yes.
    Mr. Lungren. Does Sergeant at Arms maintain a file do you 
know?
    Chief Morse. Yes, I would assume they do, because we get a 
hard copy matrix from them that is updated periodically. It is 
kept in the command center of headquarters in a safe. And there 
is a special operating procedure to direct what happens to that 
information and how it is released or when it is released.
    Mr. Lungren. Do you have it maintained electronically?
    Chief Morse. We do not. It is only provided to us in hard 
copy.
    Mr. Lungren. So you haven't--you don't have any computer 
list that you can access for Members if you need to get ahold 
of them in an emergency or something?
    Chief Morse. We do not.
    Mr. Lungren. Okay. I know that the police department, your 
office affords a function to Members' district offices. I know 
you go out there and do reviews, security reviews and so forth, 
and make recommendations. We have been the beneficiary of that. 
In the course of that, do you identify individual employees so 
that you have names and numbers of people at district offices 
as opposed to just what happens here on the Hill?
    Chief Morse. Yes, we do. And we protect that information.
    Mr. Lungren. Is that also held in hard copy as opposed to 
any computer information list?
    Chief Morse. It is held in hard copy.
    Mr. Lungren. Is there any plan to computerize those things 
as we do just about everything else?
    Chief Morse. I don't know that we have any plans to do 
that, but we safeguard it, minimizing the risk that anyone else 
can access it by having hard copy only. Once you go 
electronically, then the risks increase that other people can 
obtain that. So our preference is to maintain it hard copy 
fashion.
    Mr. Lungren. Mr. Hoecker, when you did your audit, how did 
the United States Capitol Police's privacy program compare to 
other Federal agencies, even though I know those are executive 
branch agencies?
    Mr. Hoecker. Well, sir, I haven't done any audits of other 
executive branch agencies. But my sense is there is a mixed bag 
of policies that are in place--specifically dealing with PII 
versus agencies that don't have that policy. In that regard, I 
think since the Capitol Police are a police organization, I 
believe that my judgment would be that there is a significant 
reduction of that risk because of the nature of a police 
organization. So that you are dealing with witnesses, you are 
dealing with subjects on an everyday basis.
    Mr. Lungren. Chief, with respect to dealing with other law 
enforcement agencies, do you treat the information that you 
have on Members any differently than you would with other 
information you would have dealing with other police 
organizations?
    Chief Morse. Well, there are seldom times when we, you 
know, would share information that they don't already have. In 
other words, we wouldn't provide them any. So as an example, if 
we are doing a threat case, the bureau has the primary 
responsibility and the investigation of that threat case, and 
we are simply an assisting agency in helping facilitate that 
investigation. So the information they have they protect, and 
there is rarely an opportunity or situation that would come up 
where we needed to provide them with personal information of 
the person that they are investigating.
    Mr. Lungren. Now here on the Hill, for I.D. purposes we 
have I.D. that is created for family members. They have to give 
certain information for that in order to assure that the person 
who has the I.D. is the family member. Do you have that 
information?
    Chief Morse. I can't answer that now. I do not believe that 
information is provided to us, because I don't believe we are 
the ones who issue the identification.
    Mr. Lungren. As far as you know, you do not maintain that 
information on family members of Members of Congress?
    Chief Morse. I do not believe we do. I can verify that and 
give it to you for the record.
    Mr. Lungren. Okay. Mr. Hoecker, any further recommendations 
for the United States Capitol Police at this time?
    Mr. Hoecker. No, sir.
    Mr. Lungren. Okay. Thank you very much, Mr. Chairman.
    Mr. Capuano. I just have one last question, Chief. How long 
do you hang onto these things? When somebody leaves, how long 
do you hang onto them? Can you give me Tip O'Neill's cell phone 
number?
    Chief Morse. No.
    Mr. Lungren. Haven't been able to talk to him recently?
    Mr. Capuano. Direct line.
    Chief Morse. Once we are given a new hard copy that is 
updated, the old copy is destroyed. So it is only current 
members that we would need to contact or respond to their 
residence in an emergency situation. So that is the only record 
that we maintain.
    Mr. Capuano. So when I leave, you are never going to call 
me again?
    Chief Morse. I will call you, but I guess I will have to 
get that through somebody else, not my own information.
    Mr. Capuano. All right. Thank you. I appreciate it. And I 
appreciate the progress, too. I understand this is what audits 
do, they show some weaknesses. And the measure is not in the 
weaknesses, the measure is in the response to identified 
weaknesses. And I congratulate you for making the IG happy. And 
by doing so you are making us happy by making progress. So as 
far as I am concerned, it sounds like you are going in the 
right direction, and I appreciate the efforts. All set?
    Mr. Lungren. I am all set. I would just say if you ascend 
to the Senate, they will probably keep your information while 
you are over there.
    Mr. Capuano. Just change it to a different safe. Thank you 
very much. I really appreciate it. And I appreciate taking time 
to update us on this and the progress you have made. Thank you 
very much, gentlemen.
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
